HHS/OIG, Audit - "Audit of Termination Costs Claimed by Blue Cross Blue
Shield of Arizona for the Period October 1, 2006, Through November 30, 2007,"
(A-09-08-00030)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of Termination Costs Claimed by Blue Cross Blue Shield of Arizona for the Period
October 1, 2006, Through November 30, 2007," (A-09-08-00030)
June 04, 2008
Complete
Text of Report is available in PDF format (289 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The $303,000 of termination costs claimed by Blue Cross Blue Shield of
Arizona for the period October 1, 2006, through November 30, 2007, were
allowable, allocable, and reasonable in accordance with part 31 of the Federal
Acquisition Regulation and the Medicare contract.  Contracts with intermediaries
provide for reimbursement of allowable costs when the contracts
are terminated.
Because the costs claimed were allowable, allocable, and reasonable,
this report contains no recommendations.